Q@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 L e€ g a l B mn efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-582

SARA ANN EDMONDSON,
Petitioner,
vs.

LILLISTON FORD, INC.; JANE AND JOHN DOES 1 — 10,
Individually and as owners, officers, directors,
founders, managers, agents, servants, employees,
representatives and/or independent contractors of
LILLISTON FORD, INC.; XYZ CORPORATIONS 1 — 10,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2003 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary . v ChE
State of Nebraska . ,

Notary Public Affiant 39201

My Commission Expires Nov 24, 2020

 
